BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Atlantic
Richfield Company v. ASARCO LLC, was sent via Next
Day service to the Court, and via Next Day and email
service to the following parties listed below, this 11th
day of February, 2021:
Gregory Evans
Alicia C. O'Brien
McGuire Woods LLP
355 S. Grand Avenue
Suite 4200
Los Angeles, CA 90071
(213) 627-2268
gevans@mcguirewoods.com
aobrien@mcguirewoods.com
Benjamin L. Hatch
McGuire Woods LLP
101 West Main St., Suite 9000
Norfolk, VA 23510
(757) 640-3727
bhatch@mcguirewoods.com
Kris Allen McLean
Kris A McLean Law Firm
PO Box 1136
Florence, MT 59833
(406) 214-1965
kris@krismcleanlaw.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

I www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

I Franklin Square

: 1300 I Street, NW, Suite 400E
Washington , DC 20005

Rachel Hendershot Parkin
Milodragovich, Dale & Steinbrenner P.C.
620 High Park Way
Missoula, MT 59803
(406) 728-1455
rparkin@bigskylawyers.com
Counsel for Respondent
Shannon Wells Stevenson
Counsel of Record
Kenzo S. Kawanabe
Benjamin B. Strawn
Aditi Kulkarni-Knight
Davis Graham & Stubbs LLP
1550 17th St., Suite 500
Denver, CO 80202
(303) 892-9400
shannon.stevenson@dgslaw.com
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 11, 2021.

~

lli~ ~Jc-

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

